<html>
<title> - EXAMINING GRANTMAKING PRACTICES AT THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






      EXAMINING GRANTMAKING PRACTICES AT THE DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

                           Serial No. 110-123

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                  -----

                   U.S. GOVERNMENT PRINTING OFFICE
47-523 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2008....................................     1
Statement of:
    Flores, J. Robert, Administrator, Office of Juvenile Justice 
      and Delinquency Prevention.................................    38
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    36
    Flores, J. Robert, Administrator, Office of Juvenile Justice 
      and Delinquency Prevention, prepared statement of..........    42
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Letters dated June 11 and June 19, 2008..................    78
        Prepared statement of....................................     6

 
      EXAMINING GRANTMAKING PRACTICES AT THE DEPARTMENT OF JUSTICE

                              ----------                              


                        THURSDAY, JUNE 19, 2008

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, 
Watson, Davis of Virginia, Platts, Duncan, Issa, Foxx, and 
Sali.
    Also present: Representative Walz.
    Staff present: Phil Barnett, staff director and chief 
counsel; Kristin Amerling, general counsel; Karen Lightfoot, 
communications director and senior policy advisor; David 
Rapallo, chief investigative counsel; John Williams, deputy 
chief investigative counsel; David Leviss, senior investigative 
counsel; Christopher Davis, professional staff member; Earley 
Green, chief clerk; Jen Berenholz, deputy clerk; Caren Auchman 
and Ella Hoffman, press assistants; Leneal Scott, information 
systems manager; Sam Buffone, Miriam Edelman, and Jennifer 
Owens, staff assistants; Ali Golden, investigator; Larry 
Halloran, minority staff director; Jennifer Safavian, minority 
chief counsel for oversight and investigations; Keith Ausbrook, 
minority general counsel; Steve Castor and Ashley Callen, 
minority counsels; Larry Brady, minority senior investigator 
and policy advisor; Patrick Lyden; minority parliamentarian and 
member services coordinator; Brian McNicoll, minority 
communications director; Benjamin Chance, minority professional 
staff member; Ali Ahmad, minority deputy press secretary; and 
John Ohly, minority staff assistant.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    At today's hearing the Oversight Committee will examine the 
process used by the Justice Department to award millions of 
dollars in grants to organizations that address national 
juvenile justice initiatives. These grant awards were made by 
the Office of Juvenile Justice and Delinquency Prevention, 
which is headed by Administrator J. Robert Flores. Mr. Flores 
is here today, and I thank him for testifying and for his 
cooperation with this inquiry.
    This committee has held many hearings on waste, fraud, and 
abuse in Federal contracting. We have also held hearings on 
waste, fraud, and abuse in other types of programs such as crop 
insurance and workman's compensation insurance, but we have 
held few hearings on abuses in Federal grants.
    In 2006, the Federal Government spent $419 billion on 
Federal contracts. It spent even more, $488 billion, on Federal 
grants, so examination of possible waste, fraud, and abuse in 
grant programs is a high priority.
    My staff has prepared a supplemental memorandum for Members 
summarizing what we have learned from our investigation. Last 
year the Justice Department held a competition to select worthy 
grants for funding juvenile justice programs. Over 100 
applicants submitted proposals. Career staff at the Justice 
Department then conducted a peer review of these applications, 
rating them against criteria in the Department's public 
solicitation and ranking them according to their numerical 
scores.
    Of the 104 proposals, the career staff ranked 18 as the 
best-qualified for funding. Mr. Flores largely ignored these 
recommendations. He did not fund the top-ranked program, did 
not fund the second-highest-ranked program. In fact, he did not 
fund any of the top five programs. Of the 18 organizations 
recommended for funding by the career staff, only 5 were 
awarded funds. Instead, Mr. Flores chose to give the majority 
of the grant funding to five programs that his staff had not 
recommended for funding. One was an abstinence-only program, 
two were faith-based programs, and another was a golf program. 
What is more, they appeared to have special access to Mr. 
Flores that other applicants were denied.
    Mr. Flores awarded a $1.1 million grant to the Best Friends 
Foundation, an abstinence-only organization that ranked 53 out 
of 104 applicants.
    The career staff who reviewed this particular application 
said it was ``poorly written,'' ``had no focus,'' ``was 
illogical,'' and ``made no sense.'' Documents provided to the 
committee show that, while the grant was being developed and 
competed, Mr. Flores had multiple contacts with Elayne Bennett, 
the founder and chairman of Best Friends and the wife of Bill 
Bennett, who worked in the Reagan and Bush administrations.
    Mr. Flores also awarded a half million dollar grant to the 
World Golf Foundation that ranked 47 out of the 104. Mr. Flores 
says that, despite the application's low ranking, the grant was 
awarded on the merits. But the record before the committee 
raises questions that need to be addressed.
    We know that Mr. Flores traveled to Florida in 2006 to 
visit Foundation officials and play golf. We know that Mr. 
Flores directed his staff to help the group with its proposal. 
And we know that, before the peer review process even began, a 
senior career official wrote that he was certain the group 
would be funded because Mr. Flores' chief of staff had said as 
much.
    Mr. Flores awarded a $1.2 million grant to Urban Strategies 
LLC, a consulting firm, and Victory Outreach, a ``church-
oriented Christian ministry called to the task of 
evangelizing.'' This grant application also received a low 
ranking, 44 out of 104 applications, but the head of Urban 
Strategies was Lisa Cummins, who formerly worked in the White 
House Office of Faith Based Initiatives. Documents provided to 
the committee show that Ms. Cummins had several high-level 
meetings with Mr. Flores and other Justice Department officials 
before and after receiving the grant.
    On the other hand, the Justice Research and Statistics 
Association was the top-scoring group out of 104 applicants. It 
scored a 98, was universally praised by career employees for 
its effectiveness and good work. It provides training and 
technical assistance to State juvenile corrections workers, but 
it was not selected or funded.
    There is no question that Mr. Flores had discretion to 
award grants. He is entitled to use his experience and judgment 
in determining which grant applications to fund. But he has an 
obligation to make these decisions based on merit, facts, and 
fairness, and the reasoning for his decision must be 
transparent and available to the public.
    Not every official the committee spoke with, including the 
Justice Department peer reviewers, the Civil Service program 
managers, and the career official in charge of the solicitation 
agreed with Mr. Flores' approach. In fact, nearly every one of 
them said his approach was neither fair nor transparent. Mr. 
Flores' superior, the Assistant Attorney General, told the 
committee, ``I am for candor and clarity, especially when 
dealing with the people's money, and that did not happen, and I 
am upset that it did not happen.''
    The only exceptions to this view are Mr. Flores, himself, 
and Mr. Flores' chief of staff, who has now asserted her fifth 
amendment privilege against self-incrimination and has refused 
to talk about this process.
    Yesterday I received a letter from the Nation's oldest 
organization devoted to fighting juvenile delinquency, the 
National Council of Crime and Delinquency, and the Council 
wrote, ``We have great concerns about the recent decisions on 
grant proposals and how these have hurt the credibility of the 
Office of Juvenile Justice and Delinquency Prevention. We 
expended substantial time and resources in good faith to 
prepare proposals. Now it seems that the review process was far 
from fair.''
    I hope today's hearing can answer the question being raised 
by the Council and other groups. Ultimately, the issue before 
the committee is whether the grant solicitation was a rigged 
game and whether it has best served children across our 
country. Today's hearing will give Members a chance to examine 
this important question.
    The staff has prepared a memo, and the documents and 
transcripts it cites I would ask be made a part of the hearing 
record.
    Mr. Davis of Virginia. Mr. Chairman.
    Chairman Waxman. Yes, Mr. Davis.
    Mr. Davis of Virginia. Reserving the right to object, I 
want to note for the record that it was just 1 hour before the 
hearing today that our staff was given a copy of this 24-page 
supplemental memorandum. While more information is always 
better than less information, the practice of withholding these 
lengthy memos until right before the hearing I think is 
prejudicial and not really in the best interest of our 
operating in a bipartisan manner.
    We are supposed to be conducting thoughtful and deliberate 
oversight of Federal agencies and the business they conduct, 
and today's hearing is not about the Department of Justice or 
the Office of Juvenile Justice program; it is about a publish 
thrashing of a very specific official. Far too frequently we 
eschew oversight of agencies and instead focus on overly 
personal attacks on agency heads. We have seen this with the 
attacks on the State Department IG, the Administrator of GSA, 
and the Administrator of EPA.
    When the Select Committee on Katrina examined what happened 
on the Gulf Coast in August 2005, we looked at the actions of 
the Department of Homeland Security as an entity, not just the 
Secretary. We looked at the actions of FEMA as an agency, not 
just Michael Brown. We examined the actions of the State of 
Louisiana, not just the Governor.
    Making oversight personal I think sometimes detracts from 
the serious business.
    Now, under the rules of the committee, Rule 2 specifically, 
we are supposed to be informed 3 days in advance of the purpose 
of the hearing, and in our opinion this memorandum kind of 
changes that and personalizes it. But I won't object simply 
because you and I have had a discussion on this. We feel, 
again, more information is better than less.
    I would note, if we are going to start getting personal on 
some of these issues, we should be focusing on individuals like 
Scott Bloch, the head of the Office of Special Counsel. Earlier 
this week I wrote to you about the new reports of Bloch forcing 
his employees to publish propaganda on the Web sites of 
publications such as the Washington Post and Government 
Executive. Over the last year we have compiled sufficient 
evidence to show that Mr. Bloch should no longer serve in this 
position of public trust. We have evidence he used non-
governmental e-mail to conduct official business. We have 
evidence he improperly called Geeks on Call to erase computer 
files that may be subject to document requests pertinent to an 
investigation of Bloch by the President's Council on Integrity 
and Efficiency.
    The U.S. Office of Special Counsel performs an important 
role, and he has been criticized from the right and the left on 
this. And just because he went after one administration 
official is no reason this committee should give him 
protection. This committee's duty is to conduct meaningful 
oversight on the agency, which requires immediate attention.
    But I will not object to the request. I did want to put 
that in the record.
    Chairman Waxman. If I might be permitted to respond, I did 
send a letter to you, Mr. Davis, on June 11, 2008, explaining 
this issue of the supplemental memo. The rules require that 3 
days in advance of a hearing a memo be distributed outlining 
what the hearing was all about. Supplemental memos are written 
by our staff. It is often incomplete until the very last 
minute, and there are other reasons, as well, that they may not 
be available. They are prepared for the majority staff. We make 
them available to the minority, as well, which I think is 
appropriate.
    I do take some exception to the idea that hearings are 
personal, especially when you close your comments about 
personal hearings by saying you want Scott Bloch investigated. 
Mr. Bloch, at your request, has gone through a transcribed 
interview, and we are taking your letter of last week under 
submission and we will talk further to you about that matter.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. And I do recall many of your Members 
talking about how we need Sandy Berger to have his case 
reviewed over and over again. We even had Members saying that 
we needed Valerie Plame back here. That seems to me, if we are 
talking about personal attacks or concerns, they have been 
expressed by Members on the Republican side of the aisle.
    Now, have we engaged in investigations that are personal? I 
think we have looked at investigations that are more than 
personal. They involve people, but they involve how those 
people are doing their job and how they are spending taxpayers' 
dollars.
    You cited particularly the Inspector General of the State 
Department, who quit because his statements before us were 
inaccurate and, had we pursued the matter further, it would 
have offered him embarrassment.
    We pursued investigations about how GSA was handling 
contracts and brought in the head of the GSA, and in the course 
of our discussions with her and her staff found out that she 
was violating the Hatch Act.
    So these are not personal matters except when it involves 
individuals and how they are handling their responsibilities.
    I had never met Mr. Flores before this morning. I thanked 
him and am pleased that he is here to answer our questions. 
This is not about Mr. Flores; this is about the public's funds. 
If this were the Flores Foundation giving out grants to worthy 
recipients that Mr. Flores determined should receive money from 
his foundation, no one would ask him any questions. But Mr. 
Flores is the one in charge of giving out funds that are 
taxpayers' funds for very specific purposes after a peer review 
process by which the different potential grantees were rated.
    I think we need to explore why some grantees were favored 
and others not, even though there had been a ranking of what 
proposals met the test of merit as determined by those who were 
rating them based on the merit. So I regret that we weren't 
able to get to you the memo that we have distributed today and 
that will now be part of the record in advance. It would have 
been desirable, and we tried to accomplish that goal, but we 
are not always able to, nor are we required to under the rules.
    Mr. Davis of Virginia. Mr. Chairman, I will move to my 
opening statement and respond during that, if that is all 
right.
    Chairman Waxman. Yes, sir.
    Mr. Davis of Virginia. I am ready with my opening statement 
if you are ready.
    Chairman Waxman. Yes.
    Mr. Davis of Virginia. And I will just respond in my 
opening statement.
    Chairman Waxman. OK. We have unanimous consent and the memo 
and documents will be made part of the record.
    [The prepared statement of Chairman Henry A. Waxman and the 
information referred to follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Waxman. I would now like to recognize Mr. Davis 
for his opening statement.
    Mr. Davis of Virginia. Thank you.
    The difficulty is the three-page document that we were 
given for the purpose of this hearing. There was only one small 
paragraph that mentioned Mr. Flores. This talked about 
grantmaking by the Department of Justice, and it seems to me if 
that was the subject of the hearing we ought to be hearing from 
more people. We ought to be hearing from some of the grantees 
and some of the people who thought they were grantees where 
they could tell their story here on the record and the minority 
would have an opportunity to question them, as well. Instead, 
the difficulty of the hearing is that it is just focused on one 
person, not the Department of Justice grant process.
    I would also note for the record that for years Congress 
earmarked almost all of this agency's discretionary funds. It 
was your side, Mr. Chairman, that suspended those earmarks, and 
the sudden availability of tens of millions of dollars in 
discretionary funds was supposed to be a boon for the agency 
and the juvenile justice field. I understand that there is some 
concern on your side that this was not done appropriately. That 
is certainly an appropriate subject for a hearing. But for 
those who don't like earmarks, this can result.
    I will never forget that I had an intermediate school in my 
District, Glasgow Intermediate, that met all of the criteria, 
scored very high for the Department of Education under the 
previous administration, and got nothing out of it, and that 
was one of the reasons earmarks were born with a Democratic 
administration and a Republican Congress, where some of our 
Members didn't feel they were getting what they should.
    I think we have every right to call people up here to 
explain why they give grants. I don't dispute that at all. I 
just wanted to note that this memo was by the majority staff 
without consultation with the minority staff. Had we known this 
was going to be the entire subject of this, I think we would 
have responded appropriately and given perhaps a different 
perspective.
    In my judgment, this isn't a hearing about waste, fraud, or 
abuse in the grant process, but I think it does open some eyes 
in terms of how these are done. Mr. Flores is a big boy. I 
think he will be able to answer why he made the decisions. It 
is, in fact, elected leadership in departments and elected 
administrations that are elected by voters to make these 
decisions, not just the professionals. They play a role in 
this, but at the end of the day they are not held accountable 
at the polls.
    Let me just say, Mr. Chairman, in terms of Mr. Bloch, I 
only singled him out because I think this has been one of the 
more egregious issues that our committee ought to be looking 
at, and I am happy to hear that you are taking this under 
consideration.
    There is no question that Federal grant programs are a 
legitimate subject of oversight. Billions of dollars are given 
to States, counties, localities, private organizations every 
year. We ought to know more about how grants are awarded and 
how the results of those programs are measured and evaluated.
    As I said before, I am afraid this hearing with just such a 
narrow focus on one unusual cycle of purely discretionary 
awards by DOJ isn't going to add as much to our understanding 
of the grantmaking procedures as I think we could have. In a 
typical year the Office of Juvenile Justice and Delinquency 
Prevention within the Office of Justice Programs awards almost 
$600 million to grantees. Most of that is usually allocated 
through block grants and congressional earmarks, but in 2007, 
under a continuing funding resolution, without those earmarks 
DOJ officials asked for proposals, evaluated the applications, 
and made awards they determined met the statutory criteria set 
by Congress to fight juvenile delinquency.
    I think one of the issues we want to understand is how 
these decisions were made, but did these grants meet the 
statutory criteria or didn't they meet the statutory criteria. 
Within that, there is obviously a lot of discretion, and we can 
have a discussion of how these are made and get some insights 
into how departments make these decisions.
    After designating most of the money for large national 
efforts, a total of $8.9 million was awarded to 10 grantees 
through an open competition. As in any such process, there are 
winners and there are losers. Some of the losers cried foul and 
called their Congressmen claiming to be victims of an 
arbitrary, unfair, and unlawful evaluation and selection 
process. Unlike in the Federal contracting, where you have a 
procedures under bid protests, there really aren't any for the 
grantmaking process, and so they understandably came to the 
Hill. These people who didn't get the grants, these groups, 
base their conclusion primarily on rankings of grant proposals 
produced by the internal Justice Department staff review by the 
professional staff.
    Some lower-scoring applications were funded, while those 
with some of the higher ratings were not, and some allege bias 
or a hidden ideological agenda on the part of the selection 
official, who is our only witness today.
    But it appears two flawed assumptions formed the only basis 
for those complaints. First, the premise that grant awards must 
automatically go to top-scoring applicants, that has no basis, 
to my knowledge, in law and in regulation or in practice. 
Second, the conclusion that broad criteria set out in the 
solicitation cannot be refined in the award process, that would 
deny a decisionmaker otherwise virtually any discretion in 
choosing between grantees. They have discretion, and that is 
what I believe the law says. We may or may not like it, and I 
think, again, you have every right to probe into how these 
decisions are made.
    These are called discretionary grants for a reason. Under 
the law, Congress intended to give executive branch officials 
of this or any administration wide latitude in determining what 
programs best prevent or address the multi-generational social 
plague that is juvenile delinquency. The burden of proof to 
support a claim that administrative action abused broad 
discretion is formidable. Absent evidence of some nefarious 
predisposition for or against certain applicants or proof of 
other improper influences on the decisionmaker, discretionary 
decisions will not be overturned by administrative appeals or 
by courts.
    It is clear that some inside and outside the Justice 
Department disagree with the decisions made by the 
Administrator, Mr. J. Robert Flores, but those disagreements, 
without more, simply replace one set of necessarily subjective 
judgments with another. The final authority to make those 
judgments was vested in a Senate confirmed executive branch 
appointee, and it was the Congress that decided in fiscal year 
2007 not to go the traditional route of funding these through 
earmarks.
    In effect, this hearing is little more than an attempt to 
earmark by oversight, to intimidate executive branch 
decisionmakers into trimming their discretion to meet 
congressional expectations. Instead, we should be talking about 
the factors and approaches that successfully combat juvenile 
delinquency. We should hear testimony about programs that 
stressed development of positive life skills through the 
example of sports or other constructive activities, and we 
should examine data about programs that rigorously track the 
progress of their participants over a long term. We look 
forward to that oversight, as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Waxman. Thank you very much, Mr. Davis.
    We have with us as our witness Mr. J. Robert Flores. He is 
the Administrator of the Office of Juvenile Justice and 
Delinquency Prevention [OJJDP], at the Department of Justice.
    Mr. Flores, thank you for being here.
    It is the practice of this committee that all witnesses who 
testify do so under oath, so I would like to ask if you would 
please stand and raise your right hand.
    [Witness sworn.]
    Chairman Waxman. The record will indicate the gentleman 
answered in the affirmative.
    Without objection, we have Congressman Walz with us today. 
As is our custom, I would ask unanimous consent that he be 
allowed to participate today in the hearing.
    Mr. Davis of Virginia. No objection. Welcome.
    Chairman Waxman. Without objection, we welcome him to our 
hearing.
    Mr. Flores, I want to allow you to make your presentation. 
Your written statement will be in the record in full. We would 
like to ask you to see if you can keep your oral remarks to 
around 5 minutes.
    Mr. Davis of Virginia. Mr. Chairman, could I just ask, if 
he needs more time, since he is the sole witness today, that he 
be given additional time so he doesn't have to rush through it?
    Chairman Waxman. I think that is a reasonable request.
    Mr. Davis of Virginia. OK.
    Chairman Waxman. We will allow you whatever time you need 
to make your presentation.
    Mr. Davis of Virginia. Don't take too long.
    Chairman Waxman. So you have the clear discretion to take 
as much time as you need, but not too long.
    Why don't you go ahead.

    STATEMENT OF J. ROBERT FLORES, ADMINISTRATOR, OFFICE OF 
          JUVENILE JUSTICE AND DELINQUENCY PREVENTION

    Mr. Flores. Chairman Waxman, Ranking Member Davis, I am Bob 
Flores, the Administrator of the Office of Juvenile Justice and 
Delinquency Prevention, a position I have held since 2002. 
Thank you for the opportunity to appear before the committee 
and correct the record publicly on issues surrounding the 
grants process in 2007.
    By way of background, I have spent most of my professional 
career working in the juvenile justice world as an advocate for 
children. I have also spent the vast majority of my career as a 
public servant, including 8 years as a career prosecutor within 
the Child Exploitation and Obscenity Section of the Justice 
Department's Criminal Division.
    Over the last couple of months, allegations have been made 
against me regarding my decisions concerning the 2007 National 
Juvenile Justice Program solicitation. Each of those 
allegations is false.
    As my testimony will show and I hope this hearing brings 
out, even a cursory review of the facts reveals these 
allegations for what they are: an attempt to attack decisions 
that, while disagreed with by some, were made under the 
authority of law and within the Department's discretion in a 
transparent and good faith manner.
    I would also like to say at the outset that I am appearing 
before the committee today voluntarily, and I intend to 
continue that cooperation fully with the committee. I am 
advised that as of June 12, 2008, the Department has produced 
over 12,000 pages of documents in response to the chairman's 
request, and I have submitted to questions by the committee 
staff.
    Upon the conclusion of my remarks I look forward to 
answering your questions truthfully and fully.
    In 2007, OJJDP had a discretionary funding line of $104 
million. Decisions on what to fund are shared between the 
Assistant Attorney General for the Office of Justice Programs, 
who has final grant authority to make decisions, and the OJJDP 
Administrator, who, based on experience and expertise, makes 
recommendations within his discretion on what to fund as 
defined by the JJDPA and Department rules.
    Shortly after the 2007 budget was passed, I met with the 
Assistant Attorney General for OJP, Regina Schofield, to 
discuss how to address the needs of the large national programs 
that received Federal funds for years prior. The AAG made the 
decision to invite a number of organizations that had received 
funding in prior years to apply for specific amounts of money. 
Approximately $71 million was committed from invitation.
    Over the next weeks the AAG and I discussed the number, 
funding levels, and subject matter of the remaining 
solicitations, and in the end five solicitations were posted, 
including the solicitation at issue in this hearing, the 
National Juvenile Justice Program solicitation.
    In response to the national program solicitation, OJJDP 
received over 100 proposals. Once applications were received 
and accepted for consideration, the proposals were subject to 
an internal peer review process. I believe that the peer review 
process is the first area where misleading information has 
appeared in the media.
    After an unauthorized leak of sensitive data, including the 
names of OJJDP career staff who conducted the internal peer 
reviews, the public and the juvenile justice field were left 
with the impression that the applications had received scores 
that related to their worthiness for funding rather than what 
is actually the case: that the application was well written, 
made sense, and clearly demonstrated that, if funded, the 
applicant could carry out the work proposed.
    The peer review process can't be used to determine the 
value of one grant against another because the panels don't see 
all the applications. They are unaware of what else may be 
proposed and what other programs of a similar nature have 
already been or may be funded. Simply put, the peer reviewers 
lack the information necessary to make such judgments.
    Moreover, as set forth in the solicitation, peer review 
scores were meant to be advisory only.
    In determining what programs should be funded under the 
national program solicitation, I relied on peer review scores, 
staff-prepared program summaries, and a review of budgets and 
applications. The deadlines we were working under were 
extremely tight, and the OJP deadline for submission of grant 
award packages from my office was set for July 31st. All of 
OJJDP worked hard to make the deadline, including working 
through a weekend to get reviews done.
    I also brought my experience to bear on the process. 
Relying on my 6 years of experience as Administrator and nearly 
25 years of experience working with children's programs, 
directly with kids, handling sexual abuse and exploitation 
investigations and prosecutions, and access to research and 
data across all of the office's spectrum of work, I considered 
the needs of the programs and the field, what works, and how to 
advance OJJDP's entire mission, and on that basis I made the 
recommendations.
    I met with Ms. Schofield in person on two separate 
occasions to discuss my grant recommendations. At the end of 
the first meeting she requested I prepare a decision memorandum 
for her signature setting out what each organization did, where 
each fit within the peer review scores, and the amount of money 
I was recommending. I prepared that memorandum, submitted it, 
and the Assistant Attorney General signed that memorandum, 
accepting my recommendations.
    Media reports have accused me of creating secret categories 
known only to me to allow me to choose only certain 
organizations for funding. This is false.
    First, there was no way I could know who would apply and 
under what solicitation until after I received the list of 
applicants.
    Second, I didn't know what the proposals would be until 
they were submitted, nor the size of the amounts requested.
    The categories that were used on the spreadsheet that 
accompanied the memo were there to help me organize in my own 
mind, as I did when I originally reviewed the applicants, who 
had applied, what they were proposing, and to help explain that 
to the AAG. No confusion about my recommendations was ever 
voiced by AAG Schofield, and the process she required was 
consistent with law, regulation, and policy.
    Moreover, every memo for every solicitation I submitted to 
her and she signed had the same information. No questions were 
raised about those presentations, either.
    While some may disagree with my decisions, they were made 
in accordance with the law, within Department rules, and in 
good faith to address the needs of our children who find 
themselves in the juvenile justice system or at risk of contact 
with it. I believe that an objective view demonstrates that no 
important area of juvenile justice was overlooked, and awards 
were geographically diverse, as well.
    I have received extensive criticism because I supported a 
single program that is abstinence based. That program is known 
as the Best Friends Foundation. What was not reported was that 
I also sharply reduced their funding request and reduced the 
number of years of funding because of the overall budget 
constraints we as an office faced. It was also not reported 
that the program keeps girls in school and improves their 
education and life outcomes.
    Likewise, the First Tee program's good work has been 
pilloried simply because golf stereotypes live on. Some have 
reported the program's use of golf, but they failed to note 
that the First Tee's primary goal is not to make golfers of 
youth participants, but to use golf as an environment in which 
to engage kids so that they can be taught specific skills.
    In addition, because of a relatively new school-based 
program and efforts to reach needy kids, of First Tee 
participants, 20 percent are African American, 8 percent are 
Hispanic, 4 percent are Asian, and 43 percent are girls. What 
was also missing from reports is that the program has been 
evaluated and shown to work.
    In conclusion, OJJDP has made great progress on a wide 
array of problems facing our kids and families. The awards in 
2007 continue that work.
    I ask that my full written statement be included in the 
record and would be pleased to answer any questions that the 
committee might have.
    Thank you, Mr. Chairman. Thank you, Mr. Davis.
    [The prepared statement of Mr. Flores follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Thank you, Mr. Flores.
    We want to now proceed to questioning. Let me ask unanimous 
consent that we start off with 10 minutes on each side. I will 
use 5 minutes of my 10. Mr. Davis will decide whether he wants 
to use his full 10 or not. Whatever he doesn't use, he can 
reserve. Then I want to yield to Mr. Cummings, who is going to 
be back here, my second 5 as well as his 5, so he will have a 
10-minute round.
    Without objection, we will proceed on that basis.
    Mr. Flores, I thank you again for being here today and for 
your statement. There are several groups I want to ask you 
about, and I will begin with the Justice Research and 
Statistics Association. It was one of the 104 groups that 
applied for a National Juvenile Justice grant. Are you familiar 
with that group?
    Mr. Flores. I am, sir.
    Chairman Waxman. Was it evaluated by the peer review team 
that assessed the merits of each applicant?
    Mr. Flores. Yes, it was.
    Chairman Waxman. And where did it rank?
    Mr. Flores. I believe it ranked at the top of the peer 
review scores.
    Chairman Waxman. It was No. 1. What was its score?
    Mr. Flores. I believe it was some place in the 98, received 
a score of 98.
    Chairman Waxman. Are you familiar with the Kentucky's 
National Partnership for Juvenile Service?
    Mr. Flores. Yes, sir, I am.
    Chairman Waxman. And that went through a peer review 
process. Where did it rank?
    Mr. Flores. Again, it was near the top. I don't 
specifically remember.
    Chairman Waxman. It was No. 2.
    Mr. Flores. OK, sir.
    Chairman Waxman. Are you familiar with the Texas A&M 
University proposal?
    Mr. Flores. Yes, I am.
    Chairman Waxman. And where did it rank among the 104 
groups?
    Mr. Flores. Somewhere in the top three.
    Chairman Waxman. That was No. 3. What about Minnesota's 
Winona State University's proposal? Where did it rank?
    Mr. Flores. I believe it was No. 4, Mr. Chairman.
    Chairman Waxman. No. 4. Finally, are you familiar with the 
Virginia Group, CSR, Inc., and their proposal? It went through 
the peer review process. Where did it rank?
    Mr. Flores. I am familiar with CSR. That is an organization 
that we currently use and provide funding to, and they, I 
believe, ranked five in their application.
    Chairman Waxman. And it was a score of 95?
    Mr. Flores. I believe so, sir.
    Chairman Waxman. How many of these top five rated groups 
did you decide to fund?
    Mr. Flores. None, sir.
    Chairman Waxman. I want to make sure I understand this. 
There were 104 groups that submitted applications for national 
juvenile justice grants. The five groups I just asked you about 
were the highest rated by your staff, and you decided against 
funding any of them; is that right?
    Mr. Flores. Yes, sir.
    Chairman Waxman. Now, how many career employees were part 
of the peer review team?
    Mr. Flores. The career employees, again, were from the 
demonstration programs division, one of the components was in 
my office. I don't remember whether or not they also had other 
employees from the Department from our office chip in to really 
work. As I said, I do very clearly want the record to be clear 
this was an internal peer review. It was done by career staff 
in my office at my direction.
    Chairman Waxman. How many people were involved in the peer 
review process?
    Mr. Flores. Well, if I can, the way it was set up is that 
there were teams of two people who reviewed about seven or 
eight different applications, so on the whole maybe 15 to 20 
people who were involved.
    Chairman Waxman. Fifteen to 20 people. You obviously 
disagreed with their work and concluded that their judgment was 
flawed. Did you fire or reprimand any of these employees?
    Mr. Flores. Well, sir, with all due respect, I didn't 
disagree with their peer review ratings. I am assuming that 
they did what they were asked to do, which was to compare the 
application to the solicitation requirements and to give them a 
score. But, as I said in my opening statement, that does not 
equate with a decision that they made or were recommending that 
this was the best program. Again, because they met in teams of 
two and they only reviewed 7 or 8, given the fact there were 
more than 100 applications, no team saw even 10 percent of all 
the applications.
    So, again, I want to make sure that the committee is clear. 
It wasn't that I disagreed; I, in fact, paid very special 
attention to that, because generally speaking I think the top 
25 percent of scored applicants make up a pool of very good 
applications, because, again, what the staff is telling me when 
they take a look is saying these folks have a good logic model, 
the presentation makes sense, and they will be able to do, if 
they are funded----
    Chairman Waxman. Let me tell you how strange this appears 
to me. Taxpayers fund a process to determine the most worthy 
programs for funding. The proposals must meet strict criteria 
and are intended to help children, but none of the top five 
proposals were approved for funding.
    Let me ask you another question. I believe the Best Friends 
Foundation received funding; is that correct?
    Mr. Flores. Yes, sir, it did.
    Chairman Waxman. And where did it rank among the 104 
groups?
    Mr. Flores. Again, I don't know what number it ranked, but 
I know that it received a score of 79.5.
    Chairman Waxman. As I understand, it came in at 53 with a 
score of 79.5. And you decided to fund them, but you didn't 
fund the Justice Research and Statistics Association, which 
your staff ranked as the top applicant and had a score of 98. I 
just find that very, very peculiar. It is one of the reasons I 
wanted to have you here to pursue it.
    I only have a few seconds left, so I am going to now 
recognize Mr. Davis for his 10-minute interval.
    Mr. Davis of Virginia. Can you tell us, these top scores 
are just peer reviews in terms of how these proposals are 
written, right?
    Mr. Flores. That is correct, Mr. Davis. They reflect 
whether or not the applicant met the requirements of the 
solicitation requirements and whether that proposal was cogent, 
made sense, and, if funded, would be able to do what they set 
out to do.
    Mr. Davis of Virginia. That doesn't necessarily mean they 
met the priority that you may have in Justice for policy 
purposes; is that correct?
    Mr. Flores. That is correct. And it also does not mean that 
we have not funded similar programs using other funds of money 
or that Congress has provided other dollars where we have 
already made an investment to the tune of tens of millions of 
dollars in that particular area.
    Mr. Davis of Virginia. So, for example, the Justice 
Research and Statistics Association, which was the ``top 
rated,'' why wouldn't you have funded them in this case?
    Mr. Flores. Well, again, we had provided funding in 1998. 
In 2006 we gave them $3.5 million. In 2006 there was $210,000. 
This is a contract that allows us to do evaluation and 
performance measures. Because of changes that we have made to 
try to bring all of that together and better organize it, that 
particular grant application, even though it was a well-
presented one, did not--there was no need again for us to 
provide funds for that process.
    Mr. Davis of Virginia. OK. You felt it was being met in 
other ways?
    Mr. Flores. Yes.
    Mr. Davis of Virginia. And so why waste the Department's 
money twice if you were trying to do this a different way?
    Mr. Flores. That is correct.
    Mr. Davis of Virginia. OK. Let me ask the two controversial 
ones. One was the World Golf Foundation in Florida, second, the 
Best Friends Foundation. The majority seemed to make much of 
these. These had been funded in previous years, had they not, 
when you didn't have discretion?
    Mr. Flores. Yes. There was an earmark, I believe, in 2003 
or 2004, and then in 2005 I provided $250,000 as a 
discretionary award. In 2006 I did not provide any 
discretionary funding for the organization.
    Mr. Davis of Virginia. But there had been congressional 
pressure in the past through the earmark process to fund these 
programs, right?
    Mr. Flores. Yes.
    Mr. Davis of Virginia. So it would be naive to think that 
somehow you on your own, because of friendships or playing golf 
or something, had just decided to fund these this year, because 
there had been congressional intent shown. In fact, I think on 
the World Golf Foundation I had signed a letter for that. That 
was First Tee. That helps a lot of kids for a lot of different 
reasons.
    Do you want to explain your purpose in funding these two 
for us?
    Mr. Flores. Sure. First, I just want to be clear----
    Mr. Davis of Virginia. We know there was a congressional 
intent. I think that is established in the record, so you are 
not alone on this on wanting to fund these. This would have 
been the will of Congress. It may not have been Mr. Waxman's 
will or some of the others. I don't know if they voted for 
these or not. But this had been congressional intent.
    What was your intent?
    Mr. Flores. Well, going all the way back to my 
confirmation, Mr. Davis, Senator Biden had asked a number of 
questions pertaining to girls' programs and the situation 
facing girls because the arrest rate seemed to be going up at a 
time when boys' rates were going down, and even when it started 
to decline it was declining at a slower rate.
    During my tenure, I have really made an effort to try to 
focus on girls and really bring them into the process. As a 
result, the reason we funded Best Friends was because they were 
doing a tremendous job keeping girls in school, keeping them 
from getting pregnant, keeping them from engaging in substance 
abuse activities. And in the District of Columbia, for example, 
the girls who have come through that, the high school girls who 
go through that program, Diamond Girls, there is a 100 percent 
graduation rate. In the District where we know we have, 
unfortunately, a number of challenges with schooling, that is a 
phenomenal program. So they are not only present in D.C., they 
are present in California in Los Angeles and in a number of 
other places, as my formal statement points out.
    With respect to the First Tee program, I will be very 
candid with the committee. The first time I came into this job 
I looked at it and said, well, why can't the PGA fund this 
entirely? There is a lot of strong corporate support, why can't 
they do it by themselves? I didn't make a rash judgment, 
however. I talked with our staff. The career staff really liked 
the program.
    Mr. Davis of Virginia. The PGA does make a huge investment 
in that program.
    Mr. Flores. Yes, they do, as does corporate America, so for 
every dollar of Federal funds, there is actually a substantial 
amount of leveraging that goes on. Plus, these First Tee 
programs are now all over the United States, and they have also 
launched a school-based program so that they can take their 
training and their materials and bring them into the physical 
education programs of a number of schools.
    And this is one of the best parts of it: they are now able 
to move into really needy areas through the school systems, 
elementary schools, and really use that as a way of getting 
kids. As we know, we do have an obesity issue. We have a number 
of issues.
    Mr. Davis of Virginia. Let me ask the question on golf. 
Teaching inner city kids to teach golf, is that really the 
priority of the Department?
    Mr. Flores. No. The priority of the Department is to find 
ways to engage kids so that we can teach them life skills, so 
we can teach them about honesty and commitment and putting 
aside immediate gratification and really working to gain 
skills, and so that is what the parents see. This program has 
been evaluated by the University of Virginia and Nevada Las 
Vegas, and Arizona, and found to be successful. So this is a 
program where a lot of folks are coalescing around it to build 
community support to help the neediest kids. I think for us 
those are the kids who would likely end up in the juvenile 
system if they don't get some help and some support.
    Mr. Davis of Virginia. Let me just note, First Tee does a 
breakfast up here every year. Tim Fincham is a law school 
classmate of mine, and was actually Congressman Good's moot 
court partner at the University of Virginia Law School. Mr. 
Fincham, just for the record, was a Democratic candidate for 
Commonwealth Attorney in Virginia Beach before he became head 
of the PGA. But they feature each year First Tee and what they 
are doing for kids around the country.
    I went to the first meeting really because I got to meet 
Jack Nicklaus. I had no idea what First Tee was. I was actually 
very, very impressed with this program and how it had actually 
turned kids' lives around, give them something to get up for in 
the morning, give them some focus, teach them some discipline.
    But that was your thought process, as well. This was my 
process in Congress of being one of many signatories from both 
sides of the aisle to support this, and you at this point have 
funded it this particular year.
    Mr. Flores. I did, sir.
    Mr. Davis of Virginia. Most of these programs I gather, the 
top 50, top 60 programs, were good programs; is that correct?
    Mr. Flores. That is correct. If you take a look at the 
scores, you really, even when you go down to the top 25 
percent, which is the top quintile of scores, you really have 
very good programs represented there. This is not a question 
that there aren't good programs and that is the reason they 
weren't funded.
    There was very limited amount of money in this particular 
solicitation, only $8.6 million. I think the field also was 
greatly disappointed when they saw--you know, they were hoping 
that there would be a $104 million solicitation and there 
wasn't, and so there was a lot of expectation in terms of what 
would be available. So I think, again, expectations were not 
matched by the reality.
    Mr. Davis of Virginia. Let me ask you this: do you at all 
look at the congressional districts that these would go into, 
and would these help a Member? Was there any pressure from 
anybody to say this recipient is in a Member's District and 
they need political help and we would like you to fund it?
    Mr. Flores. Absolutely not.
    Mr. Davis of Virginia. Did that ever come up in your 
consideration or anybody's discussions with you?
    Mr. Flores. No, sir.
    Mr. Davis of Virginia. All right. Thank you very much.
    In peer review, as well, when these grades come out, you 
don't have the same grader grading every single application, do 
you?
    Mr. Flores. No.
    Mr. Davis of Virginia. So you may have, in terms of a score 
of 98 versus a 90, a different group giving gradings that has 
basically subjective, different criteria? You may have someone 
that is an easier grader than someone else; is that possible?
    Mr. Flores. It is not only possible; it is actually 
reflected in the materials that we submitted to the committee. 
Some of the peer review scores differ 5, 10 points.
    Mr. Davis of Virginia. So if I just get the right person 
reviewing it, I am going to have a higher score going in, 
correct? Or the wrong person, a lower score?
    Mr. Flores. Initially that is the case, but we do make 
efforts to try to weight those and to come up with a way so 
that we can have some way of comparing apples to oranges.
    Mr. Davis of Virginia. Well, you may do that, but that 
wouldn't be reflected in these documents, would they?
    Mr. Flores. No.
    Mr. Davis of Virginia. So you have to then take a look at 
understanding who was grading what. That would be a factor in 
your decisions. It wouldn't be just openly expressed, right?
    Mr. Flores. No, Mr. Davis. I think on that, when I get 
those scores, what I tend to do is to look to make sure that I 
am selecting from a pool of qualified organizations, and that 
generally----
    Mr. Davis of Virginia. In other words, if they all have a 
pass rate?
    Mr. Flores. Yes. That is correct.
    Mr. Davis of Virginia. And they have to meet a certain 
criteria, and after that you look at a number of other factors?
    Mr. Flores. Absolutely.
    Mr. Davis of Virginia. And I would gather then, from the 
way these are listed, once they meet that criteria, whether it 
is 99 or 87, doesn't matter that much in the selection?
    Mr. Flores. No, it doesn't, because, again, even the 
applicants are told in the solicitation that these peer review 
scores are advisory only. It is part of what we take into 
consideration. If I only looked at the peer review scores, 
there would be no need for an Administrator for this office. 
You could simply just automatically push these dollars forward 
without any thought or any effort to try to cover the entire 
mission of OJJDP.
    Mr. Davis of Virginia. Would it have been better just to 
rate these pass/fail if you don't take them into consideration?
    Mr. Flores. Well, I am not sure. I think I would have to 
really think about that. But clearly the scores that are in the 
top 25 percent, top 30 percent, depending upon how they are 
clustered--in this particular grant we did not have a lot of 
scores at the bottom, so things were really pushed up very 
high. We had, obviously, some that scored horribly, but that is 
at the beginning. Once I get that, I have to really look at 
many other issues in order to be fair not only to the 
applicants, but also to be fair to the needs of the field, and 
to make sure that our mission actually is carried out.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    I am going to use a little bit of the time I had.
    Mr. Flores, your peer review team gave a ranking, they gave 
a score, and next to each program they had an R for 
recommended, and for those that did not receive a high score it 
says not recommended [NR]. So it isn't as if all of these had 
been recommended by the peer review; some were recommended and 
some not recommended. And, as I understand it, the two that had 
just been discussed were in the NR category.
    I have been a critic of earmarks. The reason I am a critic 
of earmarks is that I think Government funds ought to go based 
on merit, not based on the political clout of individual 
Members of Congress. That is why I urged people to stop the 
earmark process so we can develop something based on merit.
    Here you had all of this money to be distributed based on 
merit because the Congress did not put in earmarks. The reason 
Congress did not put in the earmarks is because Congress 
couldn't get a budget through, an appropriation through; it was 
just on a continuing resolution. So Justice had the obligation 
to decide on the merits. For you to take into consideration 
that there had been a lot of congressional support for a golf 
thing, that is not your job. Your job was to decide it on the 
merits. I just wanted to make that point out of the time that I 
still have reserved to me.
    I now want to recognize Ms. Watson for 5 minutes.
    Ms. Watson. I want to thank the chairman for this hearing 
today.
    Mr. Flores, on May 17, 2007 the Justice Department issued a 
public solicitation with 10 priority funding areas, but on July 
17th, when you wrote your decision memo recommending 
applications for funding, you set forth eight priority areas, 
some of which were the same as the public solicitation, but 
most of which were different.
    Now, what we have been hearing you say today is that was a 
misleading press report and they have mischaracterized your 
actions and that false press report claimed that you had secret 
criteria only known to the administration. So these criticisms 
aren't coming from the press, they are coming from your own 
staff. And the committee interviewed several officials in your 
office, including Civil Service employees, the career program 
managers, and even your politically appointed supervisor. None 
of them said that they had heard of your categories before they 
saw your July 17th memo.
    So the question is: if these were your real priority areas 
for the office, why didn't you share them with your own staff?
    Mr. Flores. Thank you for the question. That has been an 
area of substantial confusion. Let me just say again, if you 
take a look at the memorandum that I submitted to the Assistant 
Attorney General, what you will see very clearly under the 
recommendations that I listed are the categories that were part 
of the solicitation: building protective factors to combat 
juvenile delinquency, reducing child victimization, and 
improving the juvenile justice system.
    Within those, though, one of the things that I wanted to 
do, because there were so many different types of applications, 
so many different types of work that were being proposed, I 
needed to provide a way to explain what those things were. So 
what I did was, within those categories, I identified, in 
essence placed a label on what those programs did.
    So for example, with respect to the building protective 
factors, we were very clear in the solicitation. We actually 
said sports programming would be one of those things within 
that category. So when I listed on page 3 of that memo the 
World Golf Foundation, I again highlighted how that fit into 
the category one, which was utilizing sports-based outreach 
efforts directed at high-risk youth.
    It has been mischaracterized that these were secret or 
preexisting categories. That is not the case. These were the 
way that I was able to explain where those fit in into the 
overall categories.
    If you take a look at the remainder of the memo you will 
see that I was consistent with that throughout.
    I would also note that I submitted an additional four other 
memoranda under this particular funding flow, Part E, and all 
of the memos took the same form, provided the same kind of 
information. Again I would note there was never any question 
prior to them being signed by the Assistant Attorney General.
    Ms. Watson. I am concerned about your own priorities. I 
represent a city called Los Angeles, and it is a city that gave 
the world the Crips and the Bloods. I am very concerned when I 
look at your set of your own priorities. They don't necessarily 
match with the DOJ criteria.
    Our Chair made reference to earmarks. He has been concerned 
about them, because we wanted to be sure that there were some 
criteria that we all agreed upon, and so we never know when a 
person is focusing on their own areas what the priorities are, 
will affect that area.
    I am concerned that you say very little about integrating 
minorities, disproportionate minority contact and improving 
juvenile detention and the correction centers. Too many of our 
youth, African American youth and Hispanic youth in our city 
end up in lockups.
    I want you to explain to me why you haven't set as a 
priority and you have--well, I say you didn't share that with 
your staff. You just came up with this set, as I understand. So 
how do you explain veering off and putting your own targets in 
place rather than the criteria of DOJ?
    Mr. Flores. Ma'am, Congresswoman, I would first say a 
couple things. Gangs are an incredibly high priority for the 
Department and for my office. In Los Angeles, we have had a 
long-term relationship with the mayor's office since my tenure 
to really focus on gangs. In fact, it has been so successful it 
was the model that was recommended by Connie Rice for the 
mayor's office to adopt. The last that I know is that the 
mayor's office is in the process of funding, to the tune of 
$150 million, more or less, the in essence replication----
    Ms. Watson. Can I just interrupt you? I am looking at the 
list, and I am sure you have that list, and it says 
disproportionate minority contact and improved juvenile 
detention and correction centers. I made reference to it when I 
opened. I don't see it on your list of priorities. I don't know 
what you put in place. You said you worked with the mayor. Is 
that the mayor of Los Angeles?
    Mr. Flores. Yes, ma'am.
    Ms. Watson. OK. Well, I don't see it reflected in your 
priorities. I am looking at, on the other side of this paper, 
your priorities. I think you have the same list that I have. So 
can you explain why there is not an emphasis, or are you 
referring to something that was already there? These are 
different priorities.
    Chairman Waxman. The gentlelady's time has expired.
    Ms. Watson. Thank you, Mr. Chairman.
    Mr. Flores. Absolutely.
    Chairman Waxman. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Most of the time when I come to these hearings I have a 
briefing beforehand or do some reading beforehand and know a 
little bit more about it. Because of other things I was working 
on, I really didn't know much about what this hearing was about 
until I got here, but I can tell you that I have been reading 
some of this material and I see that this program has given 
money to the Boys and Girls Clubs of America. That is one of 
the finest organizations in the country. I am very familiar 
with their work in Knoxville and around the country. The Cal 
Ripken Foundation, I have read about the work that they do with 
young people. The DARE program, I have spoken at DARE 
graduations teaching kids about drugs. Mr. Davis mentioned 
that.
    But we get to these grants. You know, every Federal 
contract is a sweetheart deal of one sort or another, almost. 
They all go to former Federal employees or companies associated 
who hire former Federal employees, and the Defense Department 
is the biggest example of that. They hire all the retired 
admirals and generals and then they get contracts, sweetheart 
contracts totaling in the billions.
    If I add this up, I think these grants come to about $8 
million that we are talking about here specifically, but I can 
tell you I am familiar with the first two programs. We built a 
par three golf course in an African American section of 
Knoxville, and the work that the First Tee program does with 
these kids is just fantastic, in my opinion.
    I didn't know what the Best Friends organization was. A 
staffer just told me a few minutes ago that it is a program to 
teach inner city girls in the District about problems that can 
come with premarital or under-age sex, and so forth, sex 
education. I see they said it is headed up by the wife of Bob 
Bennett, who is one of the most respected lawyers in this city. 
I sure see nothing wrong with that.
    I don't know about what some of these others are. What is 
the Enough is Enough program? Do you know what that is?
    Mr. Flores. Yes. That is an organization that is working to 
educate parents and families, as well as communities, on the 
dangers and risks of internet predators, internet pornography, 
and has actually testified numerous times before the Congress 
as experts on that work.
    Mr. Duncan. Well, there is sure nothing wrong with that. 
What is the Latino Coalition for Faith and Community 
Initiatives?
    Mr. Flores. They are a great organization that works with a 
lot of small local community faith-based and community 
organizations that are targeting Hispanic kids with great need. 
And one of the things that they do is that they make sure that 
the money that these smaller groups receive is managed 
properly, that they can participate in the audit process, that 
they get technical assistance and support in actually 
administering those Federal funds. So what they do is they are 
really a point of leverage for us to make sure that we increase 
both the responsibility over those Federal funds, and make sure 
that we know effectively how those programs are being run.
    Mr. Duncan. You know, I can tell you every one of these 
things sound very defensible to me, and a lot better than many 
of the things the Federal Government does. What happens, you 
know, we are not machines here. Every human being, whether he 
or she wants to admit it or not, we all have feelings, 
opinions, prejudices, beliefs. Those enter in. They can talk 
about having objective ratings. What you have, all the staff 
people who worked on these, their feelings, their opinions, 
their prejudices, their beliefs entered into their rankings. 
Whoever takes your place as head of this program is going to 
have those same feelings and prejudices and feelings. He or she 
is going to favor some organizations over others.
    What you have here apparently, you have very few winners 
and you have a whole lot of losers, and apparently this is come 
about from one or more sore losers in this process. I don't see 
anything wrong with what you have done.
    Thank you very much.
    Mr. Flores. Thank you.
    Chairman Waxman. The gentleman has a minute or two. Would 
you yield to me?
    Mr. Duncan. Yes.
    Chairman Waxman. Well, we ought to say that all these 
grants ought to be distributed based on Mr. Flores' 
decisionmaking, but instead we had a whole set of criteria and 
people to review them and to make recommendations in order to 
decide on the merits. Well, if merit is being whatever Mr. 
Flores wants, why bother with the rest of that process?
    Mr. Davis of Virginia. Will the gentleman yield? I mean, I 
he took those--Mr. Flores, you took that into account, didn't 
you?
    Mr. Flores. Yes, I did.
    Mr. Duncan. It wasn't that these ratings by the 
professional staff were irrelevant, was it?
    Mr. Flores. No. They were important in establishing the 
pool of qualified applicants.
    Mr. Davis of Virginia. OK. Thank you.
    Chairman Waxman. The gentleman's time is expired.
    I would like to now recognize Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I certainly was listening very closely to the line of 
questioning by Mr. Duncan. I have a tremendous amount of 
respect for him, but there are some things that I think were 
not quite kosher in all of this, and that is what I want to 
deal with.
    Mr. Flores, I would like to ask you about the grant to the 
World Golf Foundation.
    Before I start, I would like to say that I don't know very 
much about this organization. I know that they came in to meet 
with staff and they were helpful. I know that Former President 
Bush is their honorary Chair, so I assume they do good work. 
But when the career staff in your office reviewed the proposal 
from the World Golf Foundation, they found significant problems 
with its design elements and its lack of focus. They concluded 
that the proposal did not adequately explain how funding this 
group would advance juvenile justice. The peer review team 
ranked this proposal 47th out of 104.
    On Monday you told the committee staff in 2006 you took a 
trip to Florida to visit the World Golf Foundation at their 
annual meeting. We have the agenda from the meeting, and it 
shows that on Friday, February 17th, there was a golf outing at 
the Slammer and Squire Golf Course. Are you familiar?
    Mr. Flores. Yes, I am.
    Mr. Cummings. We have a picture of this course so you can 
see what it looks like. The agenda says that the golfing was 
followed by lunch and awards.
    When my staff asked you about this on Monday, you told them 
you played golf on this trip; is that correct?
    Mr. Flores. Yes, sir, I did.
    Mr. Cummings. Mr. Flores, in 1989 Congress passed the 
Ethics Reform Act, which states that no officer or employee of 
the executive branch ``shall accept anything of value from a 
person seeking official action from, doing business with, or 
conducting activities regulated by the individual's employing 
entity.'' In 2006 the World Golf Foundation had a grant from 
your office. In fact, that is why you went to Florida to meet 
with the officials; is that right?
    Mr. Flores. Yes, sir.
    Mr. Cummings. But the green fees for this course are in the 
hundreds of dollars, so if the World Golf Foundation played for 
your game, then you received something of value, which would 
seem to be a violation of the Ethics Reform Act.
    So let me ask you this, Mr. Flores: when you played at 
Slammer and Squire in 2006 did you pay for your round of golf?
    Mr. Flores. I did not pay for it at the time because the 
way that this situation came up was after the dinner I was told 
that there would be a golf outing the next day and that I could 
fill in a foursome, so I took the opportunity to do that, which 
gave me a chance to talk with those folks during the course of 
the day and then also to meet with people after the round was 
over.
    Mr. Cummings. Mr. Flores, let me ask you this, because I 
don't have much time.
    Mr. Flores. Yes, sir.
    Mr. Cummings. We have a copy of the receipt that was 
provided to the committee last night. It is my understanding 
that you did pay, which I would like to put up on the screen. 
The date of this receipt is yesterday, and it shows that you 
paid $159 yesterday. Why did you wait until yesterday to pay 
for a round of golf that happened 2 years ago?
    Mr. Flores. Again, when I signed up to play I made efforts 
that day to pay for it, but they were not set up. Again, there 
was no Federal funding tied to this golf round for any of the 
other participants either. Everyone was paying their way. After 
I asked for an invoice. They told me that they would just go 
ahead and send me a bill. I had staff followup on that on 
several occasions, never received one, and so I continued from 
time to time to followup until we contacted Kelly Martin, and 
she was able to give us a cost, because this was tied into 
also, as you had pointed out, sir, prizes and other things that 
I was not part of and wasn't involved in. So when that cost was 
finally given to me, I immediately paid it.
    Mr. Cummings. All right.
    Mr. Flores. It wasn't that large an amount of money. I 
simply gave them a credit card and they charged it against 
that.
    Mr. Cummings. Well, Mr. Flores, you say you can explain it 
and I think you just did, but I hope you can understand how it 
appears to the taxpayer and other grant applicants. You go to 
Florida in 2006 and play golf with officials from the World 
Golf Foundation who paid for your green fees. The next year you 
disregard the recommendations of the career staff and award the 
Golf Foundation hundreds of thousands of dollars in grants, and 
you don't pay the Golf Foundation back until the day before you 
are called to testify.
    The appearance is that the playing field was not level. And 
no matter what Mr. Duncan says, we are talking about level 
playing fields. Your actions cast a taint over the entire 
process. No matter how great the Boys and Girls Club is, no 
matter how great the Cal Ripken Club is--and, by the way, I am 
from Baltimore, so I fully support that club, and I know Cal 
Ripken personally. That is why there are laws against accepting 
this kind of gift that you took from the Golf Foundation. Do 
you understand that?
    Mr. Flores. Yes, sir.
    Mr. Cummings. Based on the documents and interviews, it 
appears that you met personally with Joe Barrow, the executive 
director of the World Golf Foundation, on June 6, 2007, along 
with your chief of staff, Michele Dekonty.
    Mr. Flores. Yes.
    Mr. Cummings. This was right in the middle of the grant 
application process. The public solicitation had gone out, and 
applicants were busy drafting and submitting their proposals 
which were due in about a week. Were you giving the World Golf 
Foundation special treatment by meeting with Mr. Barrow at the 
time?
    Mr. Flores. No. I try to meet with anyone who wants a 
meeting as quickly as we can get those meetings set up. We also 
provide, during this time, technical assistance to anyone 
making an application so that they have an idea as to not only 
how to submit the application, but the nitty gritty in terms of 
dealing with the computer systems and all those kinds of 
things.
    Mr. Cummings. I am glad you said that, because I want to 
ask you this: you say that you didn't give Mr. Barrow special 
treatment by meeting with him, but the record shows that you 
rejected the requests of other groups for meetings. For 
example, you didn't meet with the President of Parents 
Anonymous, a great organization, who requested a meeting a week 
earlier. According to the e-mail sent by one of your staffers, 
you had an understanding with your office that you wouldn't 
take such meetings.
    Here is what the e-mail said. ``Per our understanding, 
these calls were to be handled by Program Managers and to 
protect you from folks beating down your door saying that you 
were not available.'' Is that correct? Open door for one and 
others will follow, you know how the grapevine works. I mean, 
is that your position?
    Mr. Flores. I have great respect for Parents Anonymous and 
I have worked and appeared at their organization several years 
in a row as their keynote speaker. I knew that they were asking 
for funds. I knew that they would probably be applying for 
funds. At that time the decision was that we would try and meet 
with as many people as we could, but we couldn't meet with 
everyone, and that is the reference there in that e-mail, I 
believe. I know that I have seen that, but I can't remember the 
specific language. But the goal obviously was, since my 
schedule was pretty tight, was to make sure that I was not 
going to get an individual meeting with every single person who 
wanted to have one.
    Mr. Cummings. But do you understand what the appearance is?
    Mr. Flores. Yes, sir, I understand that sometimes, even 
when we are trying to make the best decision you can, the 
appearance is not necessarily in line with that.
    Mr. Cummings. After meeting with the World Golf Foundation 
on June 6th, you and your chief of staff, Michele Dekonty 
directed Jeff Slowitowski, the career official in charge of the 
peer review process, to inform the World Golf Foundation 
personally of solicitations and help them apply for this 
solicitation, but Mr. Slowitowski told the committee that he 
thought this was special treatment.
    Mr. Flores, do you think you gave the World Golf Foundation 
special treatment as Mr. Slowitowski testified before our 
committee?
    Mr. Flores. No, sir.
    Mr. Cummings. And so, Mr. Flores, let me put one document 
on the screen. This is an e-mail from Mr. Slowitowski on June 
8th, just 2 days after your meeting. It states, ``World Golf 
made the grants.gov deadline. I am certain we are funding 
because Michele has said as much.'' When he says Michele, he is 
referring to Michele Dekonty, your chief of staff who has 
refused to talk to the committee and invoked the fifth 
amendment. Did you know that?
    Mr. Flores. Yes.
    Mr. Cummings. Did you know she invoked the fifth amendment 
before this committee?
    Mr. Flores. Yes, I did.
    Mr. Cummings. Does that concern you?
    Mr. Flores. That is her right under the law.
    Mr. Cummings. I didn't ask you that. I said does it concern 
you?
    Mr. Flores. I don't have any concerns about that, sir.
    Mr. Cummings. Why would Mr. Slowitowski, a career official, 
think that the fix was in and it was certain that the World 
Golf Association would get a grant? Why is that?
    Mr. Flores. I don't know.
    Mr. Cummings. The documents show that you were having 
direct meetings with the World Golf Foundation at the same time 
you were refusing others. You were directing your staff to 
provide assistance they weren't providing others. And your 
chief of staff was saying you had already decided to fund the 
application before the peer review process had even begun. If 
that isn't special treatment, I don't know what is, and it 
creates a significant problem, whether grants are being given 
to the Cal Ripken Foundation or anybody else. It is a question 
of level playing field, it is a question of fairness, and it is 
a question of making sure that when taxpayers' dollars are 
being spent, they are being spent on the basis of equity, 
parity, and a process that everybody is subjected to fairly.
    With that, I am extremely concerned, and I think you should 
be, too.
    With that I yield back.
    Mr. Flores. Mr. Cummings, could I respond? Would that be 
all right?
    Ms. Watson [presiding]. Yes.
    Mr. Flores. I just want to say very clearly the decision to 
fund or not to fund was mine. It was not Ms. Dekonty's or 
anyone else. I was certainly getting information from people, 
my career staff as well as my other colleagues, but I made that 
decision, and I made that decision after taking a look at the 
merits of it, not because I had had a conversation or a sit-
down meeting with anyone.
    There were people there in the groups that did not receive 
funding that I have talked to, I have talked to on the phone, I 
knew a lot about their program.
    For example, the Winona State University proposal is an 
excellent proposal. The problem with that, though, is that we 
are already making, to the tune of, I think over $15 million 
investments in child abuse and neglect. So the suggestion that 
somehow because someone gets to sit down and have a 
conversation with me and has redress to the Government that is 
leading to my making a judgment simply on that basis, I am not 
prepared to accept that.
    Ms. Watson. Time is up.
    Mr. Sali.
    Mr. Davis of Virginia. I have 2\1/2\ minutes first before 
Mr. Sali, if that would be all right with the Chair.
    Ms. Watson. Absolutely. Mr. Davis.
    Mr. Davis of Virginia. I am intrigued. I mean, as you get 
the peer group review underneath you, they are looking at an 
individual application and how it is written vis-a-vis the 
criteria, but they don't understand how everything fits 
together, how you may have too much funding in child abuse or 
not enough in drug prevention; isn't that right?
    Mr. Flores. That is correct.
    Mr. Davis of Virginia. And so ultimately you could have the 
top rated ones could all be in one area and you wouldn't get 
coverage in others. Isn't that one of the reasons that they 
have you make the decision within the Department instead of 
just being done through a computer?
    Mr. Flores. Yes, sir.
    Mr. Davis of Virginia. Or through peer review? I mean, I 
think that is the point.
    Mr. Flores. Yes, sir.
    Mr. Davis of Virginia. And these are tough decisions, and I 
may think it is appropriate to have you called up here when 
people write a good proposal and don't get it and have you 
explain it. It keeps everybody on their toes when you have to 
do that. But I want to make the point that I think you have 
made it clear in each of these cases why you went the way you 
did. People can agree or disagree with it. These are judgment 
subjective calls, and somebody else sitting in your position 
might have made a different decision than you did. But that is 
not waste, fraud, and abuse. That is just a difference of 
opinion. There is no violation of law that I see here and no 
violation of regulation. These are just judgment calls that 
you, as a Senate confirmed administration appointee, have to 
make along the way.
    It is a little disheartening sometimes to see underlings 
complain about it, come to the committee and complain about 
this, but you will find this, particularly at Justice, where 
some of the career staff who have different political views 
often go to the press or to somebody else and start complaining 
about it. But they are not elected to run the Government, you 
are as an administration appointee elected to run the 
Government and to make these decisions.
    We can disagree all day about it, but that is the way it 
works. And Congress has had the ability in the past to earmark 
these programs and they chose not to do it in 2007.
    So for Members who do not like it, you can look back at 
that budget process and say, we made a mistake; we should have 
done it, we'd do a better job of it. That is the option you 
have.
    And I go back again to Glasgow Intermediate School, which 
met a very high criteria for an educational grant under the 
previous administration and didn't get it and the money went 
somewhere else, and I asked appropriate questions at the time 
and met with the administration officials making it, and I was 
satisfied at the end of the day that it really wasn't a 
political call, but my first opportunity to earmark that grant 
I did the next time around and it has helped that school as if 
it had been able to fund all of these it would have done the 
same.
    Now, I think, Mr. Sali we are ready to go to.
    Chairman Waxman [presiding]. Thank you, Mr. Davis.
    Mr. Sali, you are recognized.
    Mr. Sali. Thank you, Mr. Chairman.
    Mr. Flores.
    Mr. Flores. Good morning, sir.
    Mr. Sali. The National Partnership for Juvenile Services 
submitted a grant application and, as a part of that program, 
there is a juvenile detention center in Coldwell, ID, 90-bed 
facility, that has been run by a gentleman by the name of 
Steven Jett, apparently since 1993. I understand that they are 
pretty proud of their program there and that they have a pretty 
good record with the facility there.
    I understand that grant application was ranked No. 2. 
Without going into an awful lot of detail, I understand that 
the applications that were ranked 39th, 42nd, 44th, and 53rd 
all received funding, but this proposal that was ranked No. 2 
did not receive funding, in spite of the fact that it appears 
to be a very good program.
    I recognize that you have been put in place to make 
decisions and use your judgment. On the other hand, I hope you 
will recognize that this does raise eyebrows when the No. 2 
program does not get funded and these other lower-scoring 
applications do get funded.
    Can you explain to me the reasoning why National 
Partnership for Juvenile Services, which was ranked No. 2, was 
not given funding, but these other lower-ranking proposals 
were? What were the factors upon which your judgment was based 
on that particular case?
    Mr. Flores. Thanks for the question. I appreciate that.
    First of all, the proposal overall was to create a new 
center, a new national center to explore confinement issues, so 
this was not funding that was going to go directly to a 
particular detention facility or a particular corrections 
establishment. This was really designed to create a new center, 
which would explore these confinement issues, promote best 
practices, conduct data collection efforts, and also provide 
technical assistance.
    The Office of Juvenile Justice and Delinquency Prevention, 
that is our job. So in my view this was requesting the creation 
of an organization that was going to mirror very much what we 
already do.
    For example, our office, congressional funding comes to our 
office that we administer to the tune of, I think, usually 
around $80 million a year that goes to States that they can use 
for disproportionate minority confinement, which is DMC. I am 
sorry to use those acronyms--disproportionate minority 
confinement. We provide, as a result of a set-aside that 
Congress has, I think, wisely built into the statute, technical 
assistance and training, and on more than one occasion we have 
actually used folks connected to a number of the organizations 
that would be made up by the NPJS.
    I also looked at the requirement. I took 2007, sir, to be 
an anomaly, that we probably would not see in 2008 again part E 
with no earmarks, and so I was looking at how do I make the 
best decision with 1-year funding, because I can't make really 
long-term decisions where I am going to create a new center, in 
essence, provide that initial funding, and then not be able to 
continue that level of support. I know what goes into creating 
these national centers. It is expensive. It is hard to get the 
infrastructure dollars.
    So rather than build new infrastructure, I decided up 
front, after looking at what had actually come in--because I 
didn't know until I actually saw the list of organizations that 
had applied--that, based on the dollars being requested and the 
types of work that were being proposed by all of the top-
scoring grantees, that I would not invest in the creation of 
new centers.
    That was my thinking on that. It wasn't that the idea is 
not a good one and that if private funding were available for 
that or we were in a different type of budget environment that 
we might not go ahead and do that, but under the circumstances 
we only had $8.6 million to award under this grant 
solicitation.
    If I had taken the top three centers, one center was 
promoted by NPJS, the other two were put out by NCPC, one on 
girls and one on violence prevention, I think, if I recall 
correctly, that would have taken up the entire budget. We would 
have only been able to make three awards.
    I did not know, did not have the confidence that I did with 
other organizations that I could really reduce their funding 
and they would still be able to do the work that they were 
proposing.
    That was my thinking process, sir.
    Mr. Sali. Thank you, Mr. Chairman.
    Chairman Waxman. OK. The gentleman has completed his 
questioning and time has expired.
    The Chair recognizes Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I don't have any 
questions at this time. Thank you.
    Chairman Waxman. OK. Who is next? Mr. Issa.
    Mr. Issa. Thank you.
    The fundamental challenge, it seems, that you face is that 
all of you are Senate confirmed individually. Does that create 
a bit of a conflict, in your mind, of the chain of command? And 
I am not trying to put you on a hot spot, but in a sense isn't 
it usual to have a Senate confirmed leader who then essentially 
has the allegiance of people that are not Senate confirmed 
beneath him, and that is not the case here. Does that create 
some conflict in your mind or some question?
    Mr. Flores. With all due respect, it is just the system I 
am in, so we have attempted to deal with it. I have some great 
colleagues, both appointees as well as the career staff, who 
work very hard on these issues.
    Mr. Issa. And I realize that every Ambassador is confirmed, 
in addition to the people above them, but the reason I ask the 
question is your allegiance, if you will, is it to a certain 
extent to interviews, promises, the attitudes necessary to get 
confirmed versus, if you will, the priorities of those above 
you or below you?
    Mr. Flores. No. Sir, I took an oath to do the best job I 
possibly could, to defend the Constitution, to abide by its 
laws, and that is where my--as I have told my staff, it is 
about the children. These are our kids, not somebody else's 
children that we are worried about. That is what I worry about.
    Mr. Issa. So you would say that there is no priority based 
on any political consideration; that even though you are all 
political appointees confirmed by the Senate, you are not 
beholding to either the appointer or the confirming Senate?
    Mr. Flores. No, sir.
    Mr. Issa. OK.
    Mr. Flores. My responsibility is to make sure that these 
kids get help.
    Mr. Issa. OK. And up until now I think you have focused 
solely on the so-called priorities for funding, but isn't it 
the case that your boss, Ms. Schofield, had priorities of her 
own?
    Mr. Flores. Yes, she did.
    Mr. Issa. You funded the Native American Children's 
Alliance--that was at her request because of her own 
priorities, isn't that true?
    Mr. Flores. Yes.
    Mr. Issa. Isn't it true that the Native American Children's 
Alliance received the same score, an 82, that World Golf 
received?
    Mr. Flores. I believe that is right.
    Mr. Issa. So in the case of a tie, it is a political 
decision?
    Mr. Flores. Yes. I think, again, she had priorities, she 
had information, and she had an understanding of the overall 
mission not just of OJJDP but of OJP, and so she moved to do 
that.
    I would just note for the record that my understanding is 
that there was insufficient funding in the solicitation pot for 
the national programs, so she actually identified $250,000 in 
de-obligated funds and made those available on top of the money 
that was available for the national program solicitation, and 
that was something that only she could do, because those are 
dollars she controls.
    Mr. Issa. OK. And typically grant awarding year a 
contractor is hired to review the grant applications and score 
each application, but for fiscal year 2007 OJJDP--that is not a 
catchy name--decided that the solicitation entitled for 2007 
National Juvenile Justice Programs, the applications would be 
reviewed by internal peer reviews. Was that wise to essentially 
bring them into what you sort of admitted is a political 
environment?
    Mr. Flores. Well, I think that in this particular case it 
was. We were working under tight deadlines, and the staff was 
being asked not to opine as to the worthiness of these 
applications, but they were being asked to determine whether or 
not the applications were sound and to create a pool for me.
    Mr. Issa. So you weren't reviewing which would get the best 
bang for the taxpayers' dollars, but rather whether the 
applications were accurate?
    Mr. Flores. Well, whether they were complete and well 
presented. That was the peer review portion. The other question 
really focused on me, and that was my responsibility to make 
recommendations.
    Mr. Issa. So would it be fair to say that if, in fact, you 
are looking for completeness of applications and then, if you 
will, priorities of individuals, and you don't have an 
independent grant peer review grant process that evaluates the 
quality of the return on investment to the stakeholders--in 
this case the taxpayers--that, in fact, this is charity more 
than it is return on investment?
    Mr. Flores. No, sir. Those are considerations that I make 
when it gets to my desk in terms of the peer review. For 
example, that is one of the reasons that I thought the First 
Tee program was such a valuable asset, because they leverage a 
lot of private dollars and other dollars that come into the 
organization.
    Those are the issues that I do, in fact, ask. That is the 
reason why we didn't go with JRSA, the No. 1 rated peer review 
scored program, because we had already made some changes within 
our office, and to go ahead and fund them would have wasted 
those dollars.
    Likewise, you know, we are always looking. Texas A&M 
proposal, which was identified by the chairman a little while 
ago, that was a locally State-based program. That wasn't even 
national in scope. Those are just things that, again, on my 
responsibility as the appointee, when I am trying to prepare my 
recommendations to the final decisionmaker.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Waxman. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Flores, I, for one, appreciate your service to our 
Nation and our citizens and the importance of your work because 
it does deal with children and how we deal with preventing 
juvenile delinquency and all the related issues that go with 
that.
    I do have some specific questions. I apologize for not 
hearing your previous testimony. Hopefully I won't be too 
repetitive of what you have already addressed.
    It does come from an applicant in my District, a 
longstanding, well-regarded, 30-year history, and some 
questions they have raised as ones trying to fairly participate 
and compete.
    I know you have talked a little bit about the criteria, the 
priorities, the categorical priorities that were set for what 
you were looking for for applications in this round. My 
understanding, from my constituent agency, is that, in essence, 
after the deadline passed, additional new priorities were 
applied that were not delineated to the applicants. If I 
understand from your testimony earlier, from my staff, is that 
you did address that, that you had an initial screening and 
then you applied some additional priority review.
    I guess my question is: why would that not have been shared 
with the applicants up front, what you are looking for, rather 
than them go through a process? If you have priorities, why 
have them go through the process of applying if it is really 
not in the area that you are looking to prioritize?
    Mr. Flores. I really do appreciate that question, because I 
think there has been a lot of concern about that issue.
    When I sat down with the Assistant Attorney General to come 
up with the remaining solicitations after the invitations had 
been made and we knew what the dollars would be for these other 
solicitations, we had a choice: we could either be fairly 
narrow and put out a national program solicitation that really 
wasn't a national program solicitation, it was, again, a 
subject matter solicitation, much like the others we have 
done--prevention, intervention, substance abuse, mentoring, 
those kinds of fairly specific issues.
    Mr. Platts. Yes.
    Mr. Flores. It was my decision to put out a broad national 
program solicitation. Intentionally, if you take a look at the 
solicitation, there were three very broad categories.
    Mr. Platts. Right.
    Mr. Flores. What I wanted to signal to the field was, while 
it may not be a lot of money, and I don't believe that we let 
people know what the amount of money was. That would have been 
unusual in any event. I wanted to at least encourage people, 
give people an opportunity to bring before me great programs. I 
mean, I know a lot about what is going on in the field because 
I get a lot of information across my desk and my staff is very 
good about that, but I don't know everything. So I was waiting 
to get this information, and people applied. I had no idea who 
was going to apply and what for.
    Once those came in and I saw the peer review scores, I had 
to come up with a way of putting them into categories. It 
wasn't that I had categories prior to seeing what was there, 
but, for example, JRSA--again, the top peer review scored 
organization--they are in the statistics, data, evaluation 
business, so that is kind of the heading that they were under, 
and there were other similar kinds of organizations all the way 
throughout the top 25 percent.
    We had a number of centers that were being proposed, 
whether it was by NCPC or by the National Juvenile Partnership, 
so these are not, contrary to what they have been suggested to 
be, special little categories that I had that I didn't tell 
anybody about. These were the descriptive labels and the 
categories that I had when I saw what was actually on the 
table. So there was nothing new introduced, but I had to then 
figure out from those groups that actually applied which ones 
now, looking at the entire JJ funding universe, which ones made 
sense.
    Mr. Platts. My understanding is that in the initial three 
broad categories there are subcategories totaling about 10 
specific areas, 3 under 2 of them and 4 subcategories under the 
3rd, so you had 10, and you had your applications, and then, in 
response, you did this additional review that you are talking 
about, and that of the 104, I think it is, or so applicants, 
that less than 20 were then eligible based on the additional 
criteria that was put forth as part of your review.
    Mr. Flores. Yes. I had to make a value judgment within 
those categories, seeing now who had actually applied, which I 
felt were more important than others. Yes, I did.
    Mr. Platts. More important, or eligible by a certain 
criteria being applied?
    Mr. Flores. No. More important based on who was there. I 
know this sounds like semantics, but it is really not. I am 
trying to figure out, for example, who----
    Mr. Platts. Let's take that assumption. I am going to run 
out of time here. I guess I am. If I can complete this 
question, Mr. Chairman, if that is OK? Thank you.
    Let's take that it wasn't new criteria, because that was my 
first concern, because if there is additional criteria it 
should have been out there from the beginning. But assuming it 
is not new criteria but just further scrutinizing the 
applicants, which wasn't my understanding, I guess in your 
answers to Mr. Issa's questions you said that the panels that 
did the review--I wasn't sure why it was staff versus outside 
experts to get some additional input--but the panels that were 
reviewing were not for worthiness, but just if they were sound, 
basically complete.
    I guess it doesn't seem like you gave much weight really to 
the panels and their scoring process, because once you had all 
those scores you really didn't weight those scores. You did an 
additional review of your own to get who is going to be really 
provided funds.
    I guess I am uncertain of why go through the scoring 
process, why have that peer review with all these 25 panels, do 
that scoring, if it is going to come to you and then you are 
going to do the weighting of the 104 applicants as opposed to 
saying, all right, we have 104, here is how they scored, maybe 
I am going to narrow it to the top 25 and then look at those. 
But it seems like that is not what you did. You started over 
with all 104. I am not sure why you even go through that 
scoring process up front.
    Mr. Flores. I did not go through all 104. I confined myself 
to around the top 25 percent, top quarter of the different 
applications that came in. And it is really very important for 
the staff. In this case they are more than competent to go 
through that. They know budgets. They know program submissions. 
They have seen a lot of these solicitations. They really can do 
an incredible job in terms of whether or not the proposal is 
internally consistent and has a logic model that works. Those 
kinds of things are important.
    Once I get that, I use that to create a pool. That is where 
I pull from. I don't go just anywhere in the list. I really 
take that into consideration.
    Mr. Platts. So you did, in essence, eliminate the lower 
three-quarters?
    Mr. Flores. Yes, sir.
    Mr. Platts. OK.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Platts. Will we have another round, Mr. Chairman?
    Chairman Waxman. Yes, if we have time.
    Mr. Platts. Thank you, Mr. Chairman.
    Chairman Waxman. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman and ranking member, for 
extending this courtesy to allow me to come before you today.
    Mr. Flores, thank you for being here.
    I represent the First District of Minnesota. That includes 
Winona State University. At Winona State University, that is 
where the National Child Protection Training Center is housed, 
and the mission of this center is the only federally funded 
program that has as its goal the significant reduction if not 
elimination of child abuse in the United States, and has a 
practical, concrete, peer reviewed plan to achieve this goal. 
They trained over 10,000 prosecutors, social service workers, 
teachers in all 50 States across the Nation, and has been 
recognized and recognized by the peer review process as one of 
your top four grant recipients or, in this process, I guess, 
suggestions.
    I will have to be quite honest with you. I do have a bias 
in this. I am a public school teacher. I started as an 
elementary, middle school, and high school teacher, and I am a 
parent of two small children. The elimination of child abuse 
and the cost to this Nation morally is incalculable. The 
financial impact of it is estimated somewhere around $78 
billion, as you are well aware, because you are leading a 
Department that is No. 1 priority is to address this issue.
    Have you been to Winona State and the National Child 
Protection Training Center?
    Mr. Flores. I have not, sir.
    Mr. Walz. We will extend you that invitation. Winter is the 
best time to come. [Laughter.]
    Mr. Flores. And I am listening to where we are going here.
    Chairman Waxman. Can you golf in the winter time?
    Mr. Walz. We are listening to the questions here and I 
understand and I am listening and trying to get a handle on 
this.
    Winona State sent in a letter then after they were denied, 
after they were ranked fourth out of all of these, and it said 
because of the number of quality of applicants received, the 
selection process was highly competitive. A peer review panel 
reviewed applications against the criteria set out in the 
solicitation.
    And then they sent back what was wrong or what was right, 
and it came back with a list of strengths only. Some things 
like ``project offers both innovative approach and advancement 
of current practices,'' ``clear connection between goals and 
objectives desired of the program in the reduction of child 
abuse.'' ``detailed description of specific program 
implementation, strategies detailed.'' And the last one said 
this: ``applicant clearly has the organizational capacity and 
experience to manage the project.'' OK.
    And I listened to what you are saying, and you said, I have 
to make the final determination. It was very specific that 
child abuse reduction was one of the criteria that was put out 
to them. Hundreds and hundreds of hours were put into the 
application process. They met all these. And yet, when it came 
out, you awarded a grant to Victory Outreach, who said, thank 
you but we don't have the organizational capacity to take the 
grant and they handed it back. You were told that by the peer 
review process and you still awarded the grant.
    In retrospect, would it be wise to take some of the 
suggestions from the peer review process, like whether they can 
spend the money or not?
    Mr. Flores. Mr. Walz, first let me say I am very familiar 
with the work that Victor Vieth and the organization do at 
Winona and I support it 100 percent. I am a former prosecutor 
and have done these kinds of cases, so this is also very 
important to me as a dad of both a boy and two girls.
    What I will say is this: we had very little funding in this 
particular pot. The Justice Department administers a number of 
very closely related training programs. We have the National 
Children's Alliance, which funds child advocacy centers across 
the country which provide very similar training and support. We 
had awarded a $700,000 grant to the National District 
Attorney's Association, which is a related entity, as you know. 
They are associated with the organization at Winona.
    So, based on looking at how much money we were already 
investing in terms of child protection, child sexual abuse and 
exploitation, the fact that I had recommended a $700,000 award 
to NDAA, I did not feel that we could go ahead and continue to 
fund out of a pot of money which was just $8.6 million.
    Mr. Walz. On that line of logic, though, it brings me back 
to the Best Friends. You went ahead and offered Best Friends $1 
million out of this, even though they were far lower, 80th or 
something, out of this group, even though the Bush 
administration had put $213 million previously into this. So 
the argument is we are already funding the child abuse things, 
there is no more need for this, whatever. That is a tough 
argument to make when you went ahead and funded one that the 
Bush administration said was fully funded and you went ahead 
and gave them more anyway.
    I am trying to understand. I guess my process comes to what 
many of the Members are saying here. Are we paying those panels 
to review this, because I would like to have the IG look at 
this, because if those panels are totally disregarded and the 
hundreds of hours that are spent by people out in there, we are 
wasting taxpayer money.
    My problem is on the criteria of this. If this is going to 
be that Administrator Flores is going to decide, put that out 
in the grant application. Put down whatever you want, but at 
the end of the day Administrator Flores will decide. That may 
not be what I agree with, but at least that is going to be a 
fair and honest answer on this, because I see no reason. It was 
specifically directed to address child abuse, and now you are 
saying it was a pot of money and we moved it around.
    They, in their best faith effort at Winona State University 
and Victor Vieth, did everything the grant asked. Their peer 
review process said you did everything that we asked. Others 
that didn't do that and couldn't spend the money were awarded 
the grant, and I am trying to wrap my mind around this. I am 
not here to debate with my colleagues the merits of the Golf 
Association, which I fully think does what they say they are 
going to do, nor the Boys and Girls Clubs, but, as the chairman 
has said, there is a very interesting defense of arbitrary 
earmarking going on from people in this room. That doesn't make 
any sense to me if we are trying to streamline focus.
    As I read to you again, this is the only one you fund that 
has a practical, concrete peer reviewed plan to achieve this.
    And you said at the end, Mr. Flores, you are just trying to 
make sense of how this all fits together in the criteria of 
what you are doing. Are you doing that through qualitative 
analysis, or how are you coming up with what fits in the 
overall plan?
    Chairman Waxman. The gentleman's time has expired.
    Do you want to respond to that?
    Mr. Flores. Mr. Walz, Congressman, I do take into 
consideration not just information that is subjective, but we 
have a substantial amount of hard data in terms of the 
different programs that we evaluate. We do a substantial amount 
of data collection in our office. We fund that. So it is not a 
question of my not being aware of the utility and the 
importance.
    But I would say again that the Department, in particular my 
office, funds a substantial arm the of child abuse and neglect 
work. This is not something that is not important to me. I 
certainly hear the agitation in your voice, and your heartfelt 
feeling that I made a bad decision.
    Chairman Waxman. Mr. Flores, I am going to have to 
interrupt you because we are running out of time and we want to 
close out the hearing and give each side an opportunity to make 
further comments.
    I want to point out that you said you restricted yourself 
to the top quarter, and yet Best Friends is not even in the top 
50 percent.
    You state in your testimony you believe you awarded these 
grants in a transparent and good faith manner, but that is not 
what we have heard from other officials at the Department of 
Justice. We talked to five current and former officials, 
including Civil Service program managers, career supervisors, 
and even a Bush administration appointee, and every single one 
of them came to the opposite conclusion.
    Let me give you an example. We interviewed one of your 
program managers who served as a peer reviewer on this 
solicitation, and we asked her whether the process was 
transparent. She said no. We asked whether it was fair, and she 
said absolutely not. And we asked her whether it served the 
taxpayers' interests, and she said no it does not.
    We also interviewed your Associate Administrator, Jeff 
Slowitowski, someone with 18 years of experience who supervised 
the peer review process. He was familiar with other Justice 
Department funding streams. Here is what he said, ``whatever 
factors you are going to use to weigh and sort out the pool 
should be very clearly produced in the solicitation so that 
everyone understands that.'' When we asked him whether he 
thought the process was fair or transparent he said no.
    We also interviewed your superior, the Assistant Attorney 
General for Justice programs, Regina Schofield, and, like you, 
she was a Senate-confirmed Presidential appointee. She told us, 
``you can't create categories after grants have been received, 
because there is no transparency in the process.'' She said it 
is not fair to the grantees, and she said you did not have 
candor or clarity in your process. She said, ``I am for candor 
and clarity, especially when dealing with the people's money, 
and that did not happen and I am upset that it did not 
happen.''
    We wanted to interview your chief of staff, Michele 
Dekonty, but she refused to answer our questions and invoked 
the fifth amendment against self-incrimination.
    Mr. Flores, it seems that you are the only person at the 
Department of Justice who thinks your process was fair, 
transparent, and served the interest of the taxpayers.
    I am not asking you to respond, but I just want to make 
that as my closing comment and will be pleased to receive 
comments from you further in the record, but I do think that is 
important to set all of that out.
    We have a unanimous consent request that two letters be 
submitted to the record, one that I sent to Mr. Davis and the 
other that he sent to me. Without objection, that will be the 
order.
    Mr. Davis of Virginia. Thank you.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. I would like to now turn it over to Mr. 
Davis for any closing comments.
    Mr. Davis of Virginia. Mr. Chairman, just a couple 
sentences. Mr. Platts wanted one clarifying question, if we 
could do that very quickly.
    Mr. Platts. Thank you, Mr. Chairman. Thank you, ranking 
member.
    Just a followup, Mr. Flores. In getting to how you did the 
scoring and how you took it, you said your second review was 
taking, in essence, the top 25 percent. The applicant that I 
have been contacted by was scored first in their panel and 87.5 
on the score, and I guess I don't understand how you are saying 
you took the top 25 percent when five of those that were funded 
were ranked 47, 42, 33, 53, and 26, that being the only one 
that would be in the top 25 percent.
    If you took the top 25 percent, how did four of those 
others that were way out of the top 25 percent make that second 
cut, and especially when they were ranked in their panels, one 
was No. 5 in a panel, one was No. 6 in the panel? How do you 
reconcile that if you took the top 25 percent? And you said you 
give great weight to the staff reviews, because they are the 
ones who are administering these programs.
    Mr. Flores. Congressman, do you have a copy of the decision 
memo? Is that what you are looking at? I just want to refer you 
to some parts of that. If you have a copy of that, what you 
will see is that I was referring to the top. Ultimately they 
fell into the top 20 percent of peer review scores, not the 
actual out of 100 they were 50 or 47. I was going by the 
scores.
    That is what is really relevant, not the number where they 
fit in, because conceivably they could have all gotten scores 
of 98, 99, 97, and they would have all been clustered at the 
top. We still would have had to make some kind of decision.
    The point that I would make is that, again, I had to ask 
questions once I looked at the top-scoring pool of applicants. 
So yes, if you take a look at the decision memo I actually made 
sure that the specific peer review score was part of each of 
the award recommendations so that there would be no confusion 
over what the score was that each of those organizations 
received.
    Chairman Waxman. We are going to run out of time here.
    Mr. Davis of Virginia. Let me just make one quick point, 
because we have to go vote. No. 1 is that the scores were 
different scorers, so you had one person scoring under one 
criteria or another, and you are comparing almost apples to 
oranges when you look at the score because you have different 
people with different criteria, and some are more lenient than 
others scoring.
    I would just note thank you very much.
    Mr. Platts. Thank you, Mr. Administrator. Thank you, Mr. 
Chairman.
    Mr. Davis of Virginia. There is no indication here that any 
laws were broken or any regulations. What we have is a 
disagreement, obviously, among grantors, grantees, and 
Members--this is why we fight over earmarks the same way--over 
some of your decisions. I may or may not agree with the 
decisions, but I think you have, at least to my satisfaction, 
explained why you made them.
    Just one quick clarifying note. The Assistant Attorney 
General, Regina Schofield, her program was funded way down, the 
Native American Children, but you funded that, but she had the 
ability to overrule your decision, did she not, if she didn't 
like it?
    Mr. Flores. Yes.
    Mr. Davis of Virginia. And in her testimony she never said 
there were any violations of law or regulations, just a 
disagreement on these, and she chose not to overrule. So I just 
add that.
    Mr. Waxman, thank you for being at this hearing.
    Mr. Flores, thank you. You have acquitted yourself well. 
Thank you.
    Mr. Issa. Mr. Chairman, I don't want to speak but just to 
ask that, considering the scope of this hearing, it certainly 
should open Pandora's Box to look at whether or not in the 
future we regulate grant writing in a way that would prevent 
this kind of discretionary in the absence of some sort of 
review process, so I would hope the chairman would look at the 
broader picture and hold a followup hearing on how we could 
improve Government.
    Chairman Waxman. I think you have raised a very good 
question. If we are going to have awards granted on merit and 
there is a process for merit, then that should dictate the 
selection, maybe with some discretion but grants should be 
based on merit. If they are based on the whims of the people in 
charge, then we ought to clarify that, but the Congress ought 
to look it over to see whether we think it makes sense for the 
American people.
    That concludes our hearing. We again thank Mr. Flores for 
being here. We stand adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
